OFFICE OF INSPECTOR GENERAL

            Audit Report

 Audit of the Railroad Retirement Board’s
   Medicare Major Application System

            Report No. 09-06
           September 30, 2009




RAILROAD RETIREMENT BOARD
                                       TABLE OF CONTENTS


Introduction
 Background ................................................................................................................. 1
 Objective...................................................................................................................... 2
 Scope .......................................................................................................................... 2
 Methodology ................................................................................................................ 2

Results of Review
 Dataset Rules Do Not Enforce Least Privilege ............................................................ 4
 Access Controls that Enforce Least Privilege Need Improvement............................... 6
 Accountability over ACF2 Audit Logs Needs Improvement ......................................... 7
 Audit Log Content Needs Expansion ........................................................................... 9
 Audit Log of Security Violations is Misleading ........................................................... 10

Appendices
 Appendix I Bureau of Information Services Management’s Response ..................... 11
 Appendix II Office of Programs Management’s Response ....................................... 13




                                                               i
                                     INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
Railroad Retirement Board’s (RRB) Medicare major application system.

Background

The RRB administers the retirement/survivor and unemployment/sickness insurance
benefit programs for railroad workers and their families under the Railroad Retirement
Act and the Railroad Unemployment Insurance Act. These programs provide income
protection during old age and in the event of disability, death, temporary unemployment
or sickness. The RRB paid over $10.1 billion in benefits during fiscal year (FY) 2008.

The Medicare program is a Federal health insurance program for people age 65 or older
and certain disabled people. The program is run by the Centers for Medicare and
Medicaid Services and the U.S. Department of Health and Human Services. Persons
covered under the Railroad Retirement system participate in Medicare on the same
basis as those under the Social Security system. The RRB enrolls railroad retirement
beneficiaries in the program and deducts Medicare premiums from their monthly benefit
payments.

The RRB’s Medicare major application system includes the Medicare Information
Recorded, Transmitted, Edited and Logged (MIRTEL) system. MIRTEL is a batch file
system that is run daily. It establishes and maintains records for the RRB’s Medicare
beneficiaries. The Medicare major application system also includes the:

•   MIRTEL On-Line Inquiry (MOLI) database that allows view-only access to select
    data for Medicare records in MIRTEL;
•   Medicare Correction (MEDCOR) database system which allows on-line data input
    used in updating MIRTEL;
•   Medicare Referral (MEDREF) database system which allows on-line viewing of
    MIRTEL rejects and referrals, which can be corrected using MEDCOR; and
•   Monthly Adjustment of MIRTEL Master (MAMMA) which adjusts MIRTEL for
    changes in the RRB’s beneficiary payment master file used to produce monthly
    benefit checks. Like MIRTEL, MAMMA is also a batch file system.

The Office of Programs is the owner-of-record for the RRB’s Medicare and benefit
payment applications. They also have responsibilities for all of the RRB’s Medicare
activities. These activities include eligibility determinations, enrollment processing, the
collection of premiums, the recovery of overpayments, and the payment of Canadian
claims.

The Bureau of Information Services (BIS) has responsibility for the security of all
Medicare applications and data files. BIS maintains the security for these applications
and data files using ACF2, a commercial access control software product. Using ACF2,
access to MEDCOR and MEDREF is provided through one or more access privileges


                                             1
for the combined systems. The first level of access acts as a gateway to the two
database systems and allows view-only privileges. Any additional levels of access
provide transaction-level privileges such as create, update, or delete.

This audit was conducted pursuant to the Federal Information Security Management Act
of 2002 (FISMA) which requires annual OIG security evaluations. 1 This audit also
supports the RRB’s strategic goal of serving as responsible stewards of the agency’s
trust funds and financial resources, and its objective to ensure the effectiveness,
efficiency, and security of operations.

Objective

The objective of this review was to perform a system-level assessment of the Medicare
major application to determine if security controls were in place, operated as intended,
and met the requirements established by FISMA. The security controls reviewed in
detail include access controls, audit and accountability, identification and authentication,
and system and information integrity.

Scope

The scope of this evaluation was FY 2009 and included the Medicare major application
and the general support system environment in which it operates.

Methodology

To accomplish our objective, we:

•   reviewed pertinent laws and guidance;
•   obtained and reviewed listings of all user accounts associated with the Medicare
    major application as of January 14, 2009 and February 5, 2009, and verified that
    each user was a current employee or an authorized non-RRB employee user, and
    was uniquely identified;
•   obtained and reviewed documentation as of February 5, 2009, to support the
    individual access profiles of all users that had access to the MOLI, MEDCOR, and
    MEDREF databases to determine if their access was appropriate to job function;
•   obtained and reviewed documentation from December 2, 2008 through January 9,
    2009, to support access to all Medicare major application dataset files, including
    those associated with database and batch processes, to determine whether the
    access granted was appropriate to job function;




1
 Federal Information Security Management Act of 2002, Title III of the E-Government Act of 2002,
P.L. 107-347 (December 2002).


                                                   2
•   obtained and reviewed documentation to support the periodic reauthorization of user
    access privileges to the MOLI, MEDCOR, and MEDREF databases performed in
    August 2008, to evaluate the effectiveness of the reauthorization process;
•   verified the filing and retention of information system media, both digital and
    non-digital, to determine whether access was appropriately restricted;
•   obtained and reviewed documentation to support the audit of, and accountability
    over, Medicare output/production reports, audit logs, and information system
    violation reports;
•   obtained and reviewed documentation to support the existence and operation of
    system and information integrity controls which include information input restrictions;
    accuracy, completeness, and validity; error handling; and information output
    handling and retention; and
•   interviewed responsible agency management and staff.

The primary criteria for this evaluation included:

•   FISMA;
•   National Institute of Standards and Technology (NIST) Special Publication (SP)
    800-53; 2
•   Government Accountability Office (GAO) Standards for Internal Control in the
    Federal Government; 3
•   Office of Management and Budget (OMB) Circular A-130; 4 and
•   RRB policies and procedures.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Fieldwork was conducted at RRB headquarters in Chicago, Illinois
from November 2008 through July 2009.




2
  Recommended Security Controls for Federal Information Systems, NIST SP 800-53 (December 2007).
3
  Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (November 1999).
4
  Management of Federal Information Resources, OMB Circular A-130 (November 2000).


                                                3
                                     RESULTS OF REVIEW

Our review of the Medicare major application determined that the identification and
authentication, and system and information integrity controls were in place, operated as
intended, and met the requirements established by FISMA. However, we found that the
security controls over access, and controls over audit and accountability, need
improvement.

The details of our findings and recommendations for corrective action follow. Agency
management has agreed to take the recommended corrective actions except for
recommendations one and two. The full texts of management's responses are included
in this report as Appendices I and II.

Dataset Rules Do Not Enforce Least Privilege

Rules that govern dataset file access do not enforce least privilege.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications and application rules. Appendix III Security of Federal Automated
Information Resources defines least privilege as "the practice of restricting a user’s
access (to data files, to processing capability, or to peripherals) or type of access (read,
write, execute, delete) to the minimum necessary to perform his or her job."

Our review of approximately 386 dataset rules that provide users’ access to Medicare
data files showed that the RRB has written many dataset rules using a "wildcard"
designator recognized by ACF2. Wildcard designators allow the substitution of any
character in place of the wildcard. As a result, a wildcard designator will allow a user
access to any dataset which matches the preliminary dataset name. For example,
"P.BRC.-" (where "-" is the wildcard designator) allows access to any dataset that
begins with "P.BRC.". We observed that the RRB has over 10,250 datasets that begin
with "P.BRC.", the majority of which are for non-Medicare applications and include
personally identifiable information such as names and social security numbers. 5

We also identified six users with excessive rights to Medicare dataset files; the access
privileges provided were more than the users required for the current job function. Four
of the six individuals had full access (read, write, execute, and allocate) to the dataset
files involved. These datasets (not "P.BRC.") were also assigned using a wildcard
designator. The other two individuals did not require any access at all, and had the
ability to read and execute all "P.BRC." dataset files.

We found that the RRB has not established standards to address how wildcard
designators will be used when providing dataset access. Although the use of a wildcard
designator can be an efficient method of providing access as each individual dataset

5
 There are 79 users with "P.BRC.-" access, and approximately 175 Medicare dataset files that begin with
"P.BRC.". Dataset files are used in both database systems and batch file systems.


                                                  4
does not need to be enumerated for every user, overly broad wildcard usage can allow
far greater access privileges than intended.

Excessive rights and privileges to data and sensitive system programs weaken the
overall information security program, and prevent management from ensuring that their
information systems are protected from intentional or unintentional modification, or
inappropriate viewing of privacy-related information.

Recommendations

We recommend that the Bureau of Information Services:

   1. establish a standard for the use of wildcard designators when preparing dataset
      access rules; and

   2. evaluate current dataset access rules and enforce the principle of least privilege
      by restricting overly broad wildcard access use.

Management's Response

The Bureau of Information Services disagrees with the recommendations because
wildcard designators are used whenever they facilitate the administration of resources
and dataset access is allocated upon request as authorized and instructed by system
owners.

OIG's Comments on Management's Response

With respect to the use of wildcard designators, we acknowledge their efficiency in
facilitating the administration of resources and the difficulties that would arise if their use
were fully restricted. However, because large volumes of sensitive data for many
beneficiaries is easily accessible via dataset accesses, we strongly believe that wildcard
designators should be used judiciously and in a manner that does not unreasonably
increase the RRB's risk for a breach of personally identifiable information. Therefore,
we seek improvement in the RRB's access control strategy by recommending that BIS,
as the experts in access control, examine ways to reduce system owner's reliance on
overly broad wildcard use. This includes establishing a standard for wildcard usage,
and reviewing the current accesses provided via wildcard use and enforcing the
principle of least privilege by restricting overly broad wildcard access use.




                                              5
Access Controls that Enforce Least Privilege Need Improvement

Mainframe access controls, including the reauthorization process, are ineffective in
ensuring least privilege for Medicare systems.

OMB Circular A-130 requires agencies to incorporate controls such as least privilege
into applications. The RRB has implemented an annual reauthorization review of
mainframe systems accesses to enforce least privilege.

Our review of user access privileges for Medicare database systems disclosed users
who have inappropriate access based on their job functions. Additionally, our review of
the reauthorization process for Medicare database systems showed that it was
ineffective in removing all users with inappropriate access, identifying potentially
inappropriate access, and did not include contractors with access privileges. Our
reviews revealed problems in the following areas:

                                                             Number of Users        Number of Users
                                                                 MOLI              MEDCOR/MEDREF
Inappropriate Access Based on Job Function                         1                      4
Reauthorization Response Not Addressed by BIS                        5                       2
Reauthorization Response Partially Addressed by BIS 6                                       11
Reauthorization Did Not Consider Contractor                          8                       3
Other Questionable Access                                                                   22


We previously reported problems with the RRB’s reauthorization process and made a
recommendation for BIS to implement a quality assurance program to ensure timeliness
and effectiveness. 7 That recommendation is pending corrective action. We were
advised by the Chief Security Officer that an attempt was made to perform a quality
assurance assessment of the reauthorization process included in our review, and that
he was unable to complete that assessment and attest to the user access due to
documentation problems he encountered during his review. He also advised that he did
not keep records of his quality assurance attempt, but stated that he made a
recommendation for improved retention of access authorizations to facilitate future
assessments.

Excessive rights and privileges to applications and ineffective reauthorization of an
individual's rights and privileges weaken the overall information security program. As a
result, management cannot ensure that their information systems are protected from
intentional or unintentional modification.


6
  Actions taken by BIS pursuant to these reauthorization responses resulted in only the deletion of the
initial level of MEDCOR access, and not the users’ higher level of access. In effect, the higher level of
access is not operational, but represents old, outdated information that clutters the ACF2 security system.
7
  Review of Mainframe Access Controls at the Application Level RRB-Developed Applications Controlled
by ACF2 and IDMS, OIG Report No. 04-08, September 7, 2004, Recommendation 1.


                                                    6
Recommendations

We recommend that the Bureau of Information Services:

    3. remove the old, outdated information identified in our review; and

    4. ensure contractor access is reauthorized annually.

We recommend that the Office of Programs:

    5. review the inappropriate and questionable accesses identified in our review and
       initiate access modification requests, based on that review.

Management's Responses

The Bureau of Information Services agrees with the recommendations and advises that
the data will be modified, and contractor access will be reauthorized annually as part of
the regularly scheduled reauthorization process.

The Office of Programs agrees with the recommendation and advised that they have
taken corrective action.


Accountability over ACF2 Audit Logs Needs Improvement

The RRB has not enforced proper segregation of duties over, or maintained adequate
retention of ACF2 audit log reviews.

GAO's Standards for Internal Control in the Federal Government require key duties and
responsibilities to be divided or segregated among different people, including the
responsibilities for processing, recording, and reviewing transactions. It states, "[n]o
one individual should control all key aspects of a transaction or event." These key
aspects would include the production of ACF2 audit logs of system administrator
actions, and their subsequent review.

The RRB has defined auditable events as "failed user authentication attempts, changes
to users’ systems security information, and organization- and application-specific
systems security-relevant events" such as system administrator actions. 8 ACF2
provides the means to produce administrative reports, including audit logs of
administrator activities, electronically or in hard-copy paper format. Special privileges
held by the system administrator allow for the production of these reports. ACF2 also
allows a user with the "AUDIT" special privilege to produce these reports. Currently, the
RRB’s ACF2 system administrator produces the reports in hard-copy paper format, and
hand delivers the audit logs to the responsible manager for review. The RRB has

8
 RRB Information Systems Security Policy, Standards and Guidelines Handbook, Chapter 11 (June
2007).


                                                7
advised us that the various reports cannot be separated into separate print jobs, and the
responsible manager has not been granted the "AUDIT" special privilege in order to
produce the audit logs themselves.

In addition, the RRB has not specified a specific retention period for audit logs other
than that which is needed to support after-the-fact investigations. Rather, they have
designated a three-year retention period for the source data from which the audit logs
are produced. However, due to a change in tape processing specifications for the
retention of source data, the RRB did not have a full three years of data available that
could be used for the recreation of audit logs. 9 We were told that the responsible
manager retains the hard-copy ACF2 audit logs until his two designated binders are full,
and then he purges the logs on a first-in first-out basis, regardless of the log’s age.

As a result, the audit log of administrator actions that is produced for review is
vulnerable to mishandling through loss or unauthorized alteration, and management
cannot ensure their control objectives will be achieved.

Recommendations

We recommend that the Bureau of Information Services:

    6. provide the responsible manager with the "AUDIT" special privilege so he can
       electronically produce and review the audit logs of system administrator
       activities; and

    7. establish a retention period for the audit logs of administrator actions, and
       maintain the electronically produced audit logs in accordance with that retention
       period.

Management's Response

The Bureau of Information Services agrees with the recommendations and advises that
the responsible manager will be provided the "AUDIT" special privilege as part of the
conversion to RACF, and that electronically produced audit logs of administrator actions
will be maintained for three years by the Infrastructure Services Center.




9
 The RRB has modified their tape processing specifications from retaining a year's worth of data
separately on tapes for 3 years, to retaining a month's worth of data separately on tapes for 36 months.
At the time of our review, the RRB had 19 monthly tapes and no yearly tapes.


                                                    8
Audit Log Content Needs Expansion

The content of the ACF2 audit logs of administrative actions is not detailed enough to
allow meaningful review.

NIST SP 800-53 requires information systems to produce "audit records that contain
sufficient information to establish what events occurred, the sources of the events, and
the outcomes of the events." 10 Audit log reports are useful in ensuring that the system
or resources have not been harmed by hackers, insiders, or technical problems. As
previously discussed, the RRB has defined specific auditable events for security-related
data and has implemented procedures for the review of those events.

Previously, we recommended that the RRB begin reviewing logs of administrator
actions. 11 However, management's corrective action to address this recommendation is
not sufficient to meet NIST requirements because the content of the audit records is not
sufficient to allow meaningful analysis. We found that two of the three audit logs
produced for management's review contain only summary data of system administrator
actions. 12 This summary data only states that an action took place, not the actual
setting that was changed. A "before and after" image of the modified record or access
rule is available in a detailed report, which is not currently being produced.

As a result, the RRB systems are vulnerable to misuse or abuse without early detection
and management cannot ensure their control objectives will be achieved.

Recommendation

We recommend that the Bureau of Information Services:

     8. produce the logs of system administrator activities using the detailed format for
        review by the responsible manager.

Management's Response

The Bureau of Information Services agrees with the recommendation and advises that
detailed format logs will be produced for review by the responsible manager.




10
   Recommended Security controls for Federal Information Systems, NIST SP 800-53, Appendix F,
Security Control AU-3 Content of Audit Records (December 2007).
11
   Fiscal Year 2004 Evaluation of Information Security at the Railroad Retirement Board, OIG Report
No. 04-11, September 30, 2004, Recommendation 7.
12
   The two ACF2 audit logs that are produced in summary format are the Information Storage Update Log
and the Rule Modification Log.


                                                  9
Audit Log of Security Violations is Misleading

The RRB’s audit log of security violations is misleading because it produces many false
positive occurrences of unsuccessful user attempts to access the Medicare component
applications.

NIST SP 800-53 requires information systems to produce "audit records that contain
sufficient information to establish what events occurred, the sources of the events, and
the outcomes of the events." 13 Audit trails, or logs, maintain a record of system or user
activity and can assist in detecting security violations, performance problems, and flaws
in applications.

The RRB’s ACF2 systems administrator performs daily on-line reviews of the
unsuccessful user attempts. However, the report of these security violations includes
many false positive occurrences of unsuccessful user attempts. BIS management has
advised this is because of the manner in which user access attempts are recognized by
the Medicare application program code. We were advised that when an authorized user
accesses MEDCOR, the programming code attempts to log the user into all possible
levels of MEDCOR access, regardless of what level of access the user has been
granted and tried to use. These occurrences are known as false positive security
violations, because it appears a violation occurred, when one did not.

The RRB’s ACF2 systems administrator stated that several of the RRB’s systems
produce similar false positive security violations. As a result, the review of unsuccessful
user attempts is greatly hampered, and ultimately ineffective in ensuring RRB systems
are not misused or abused without early detection. The RRB is currently in the process
of modernizing their legacy systems. This IT Capital Plan Element is to be performed
over the next 10 years with individual systems modernized based on a "high value/high
risk" assessment and is to include improved accuracy and security of the systems and
their transactions. The modernization of the RRB's Medicare major application is
currently underway. This effort provides an opportunity to introduce programming
changes that will eliminate the false positive security violations discussed above.

Recommendation

We recommend that the Office of Programs:

     9. request analysis and programming revisions of the Medicare major application to
        ensure that only true security violations will be identified and reported.

Management's Response

The Office of Programs agrees with the recommendation and will submit a request for
analysis and programming.

13
  Recommended Security controls for Federal Information Systems, NIST SP 800-53, Appendix F,
Security Control AU-3 Content of Audit Records (December 2007).


                                               10
                                                                     Appendix I
                                                                                        FORM G-1151 (1-92)
                  UNI'[,l<~D STA'I'l<:S GOVEHNM";N'l'
                                                                   RAILROAD RETIHEMf;N'I' HOARD
                  MEMORANDUM




                                                               September 28, 2009

TO	           Letty B. Jay,
              Assistant Inspector General for Audit

FROM	         Terri S. Morgan,                "';/. dll!~
              Chief Information Officer      {;(IUA /II! ~ II
SUB..IECT:	 Draft Report - Audit of the RRB's Medicare Major Application System


Thank you for the opportunity to review and respond to the subject draft report. The
following are the responses to the recommendations included in the report that were
addressed to the Bureau of Information Services.

Recommendation #1
We recommend that the Bureau of Information Services establish a standard for the use
of wildcard designators when preparing dataset access rules.

Response
BIS disagrees with the recommendation. The RRB dataset logical access control is
being converted from the CA-ACF2 program to the IBM-RACF product for securing
computer data. Although RACF will change the control strategy from that of focusing on
an individual's data access to that of group access, the use of wildcard designators
within the RACF environment will be similar to its use within CA-ACF2. Wildcard
designators are used whenever they facilitate the administration of resources as
prescribed by the instructions of the data owners.

Recommendation #2
We recommend that the Bureau of Information Services evaluate current dataset
access rules and enforce the principle of least privilege by restricting overly broad
wildcard access use.

Response
BIS disagrees with this recommendation. Dataset access is allocated upon request as
authorized by system owners. BIS administers data access as instructed by system
owners and is not responsible for determining least privilege or defining the least
amount of privileges needed by users to perform their business functions.

Recommendation #3
We recommend that the Bureau of Information Services remove the old, outdated
information in our review.




                                                 11
                                                                      Appendix I



Response
BIS agrees with this recommendation. The Systems Assurance Group is responsible
for modification of this data, which will be changed by September 30, 2009.

Recommendation #4
We recommend that the Bureau of Information Services ensure contractor access is
reauthorized annually.

Response
BIS agrees with this recommendation and the Systems Assurance Group will ensure
that contractor access is reauthorized annually as part of the regularly scheduled re­
authorization process. The next round of re-authorizations is scheduled to occur in the
1st calendar quarter of 2010.

Recommendation #6
We recommend that the Bureau of Information Services provide the responsible
manager with the "AUDIT" special privilege so he can electronically produce and review
the audit logs of system administrator activities.

Response
BIS agrees with this recommendation and will make this change to provide the Chief of
Operations Services and Systems Assurance in Infrastructure Services Center with the
"AUDIT" special privilege as part of the conversion to the IBM·RACF system that is
scheduled for implementation on or before December 1, 2009.

Recommendation #7
We recommend that the Bureau of Information Services establish a retention period for
the audit logs of administrator actions, and maintain the electronically produced audit
logs in accordance with that retention period.

Response
BIS agrees with the recommendation. A three year retention period for the source data
from which the audit logs are produced is already in place. On or before December 1,
2009, after the logical access control is changed to the IBM RACF utility, electronically
produced audit logs of administrator actions will be maintained for three years by
Infrastructure Services Center.

Recommendation #8
We recommend that the Bureau of Information Services produce the logs of system
administrator activities using the detailed format for review by the responsible manager.

Response
BIS agrees with this recommendation. On or before December 1,2009, after the logical
access control is changed to the IBM RACF utility, detailed format logs will be produced
for review by the Chief of Operations Services and Systems Assurance
in Infrastructure Services Center.




                                           12
                                                                                  Appendix II

                                                                                            FORM    G-115f (1-92)

                                                                          RAILROAD   RETIREMENT       BOARD
                      MEMORANDUM
                                                                             SEP 11 2009

                 Letty Benjamin Jay
                 Assistant Inspector General    udit


                 Catherine A. Leyse
                 Director of Assess
                                        ~d
                                       nt and Training
                                                            ~~     /--

                 Dorothy Isherwood ~Ju.Ut~
                 Director of Programs  '-



                 Draft Report - Audit of the Railroad Retirement Board's Medicare
                 Major Application System




Overall           We have reviewed the draft report and appreciate the fact that the review
comments          determined that identification and authentication, and system and information
                  integrity controls were in place, operated as intended, and met the
                  requirements established by FISMA.

                  We concur with the recommendations        and will take action on those directed
                  to the Office of Programs as follows.


Recommendation    The OIG recommends that the Office of Programs:
5
                  Review the inappropriate and questionable access identified in our review,
                  and initiate access modification requests, based on that review.



OP Response        We agree. In fact we have already taken corrective action. Documentation of
                   our corrective action was provided as a separate submission on September 3,
                   2009. We believe that this recommendation can be considered implemented.



Recommendation    The OIG recommends that the Office of Programs
9
                  Request analysis and programming revisions of the Medicare major
                  application to ensure that only true security violations will be identified and
                  reported.




                                                       13
                                                                               Appendix II




OPResponse	     We concur. A request for analysis and programming will be submitted by
                December 31, 2009. At that point we expect that this audit recommendation
                would be considered implemented.

                Because the recommendation does not involve a significant finding or
                vulnerability, we do not expect the Bureau of Information Services to allocate
                resources to the request until the issue can be investigated as part of system
                modernization efforts.



cc:   Chief Information Officer
      Director of Policy and Systems




                                              14
